                                                     U.S. Department of Justice


                                                     United States Attorney
                                                     District of Maryland


Rod J. Rosenstein                                    36 South Charles Street                        410-209-4800
United States Attorney                               4th Floor                            TTY/TDD:410-962-4462
                                                     Baltimore, Maryland 21201                      410-209-4885
Vickie E. LeDuc                                                                                 FAX 410-962-3091
Public Information Officer                                                                Vickie.LeDuc@usdoj.gov


September 27, 2010
FOR IMMEDIATE RELEASE                         CONTACT AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                       MARCIA MURPHY at (410) 209-4885

                         FAA EMPLOYEE PLEADS GUILTY TO STEALING $123,774
                                   FROM THE U.S. GOVERNMENT

       Greenbelt, Maryland - Keysha Logan, age 34, of Landover, Maryland, pleaded guilty today
to embezzling $123,774.47 from the Federal Aviation Administration (FAA).

       The sentence was announced by United States Attorney for the District of Maryland Rod J.
Rosenstein and Kathryn Jones, Special Agent-in-Charge, Department of Transportation - Office of
Inspector General.

        According to Logan’s guilty plea, Logan was employed by the FAA in the office of the
comptroller. From 2007 to 2010 Logan used her government-issued credit card to buy gift cards
from Office Depot and other retailers, kept the gift cards for her personal use and then approved
government funds to pay for the purchases of the gift cards. For example, on January 23, 2010,
Logan charged $535.43 on her government MasterCard at Office Depot to purchase, among other
things, a $200 American Express gift card and three $100 Visa gift cards. Logan used the gift cards
for her personal benefit and used the FAA computer system to approve the government’s payment
for the charge.

          The loss resulting from the embezzlement scheme is $123,774.47.

       Logan faces a maximum sentence of 10 years in prison. U.S. District Judge Alexander
Williams, Jr. has scheduled sentencing for January 3, 2011 at 10:30 a.m.

       United States Attorney Rod J. Rosenstein commended the Department of Transportation -
Office of Inspector General for its assistance in the investigation, and praised Assistant United States
Attorney Jonathan C. Su, who prosecuted the case.
